No. 21-138
IN THE

Supreme Court of the United States
___________

LUZ GONZÁLEZ-BERMÚDEZ,
v.

Petitioner,

ABBOTT LABORATORIES P.R. INC. AND KIM PÉREZ,
Respondents.
___________

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the First Circuit
___________

BRIEF IN OPPOSITION
___________

VIRGINIA A. SEITZ*
KATHLEEN M. MUELLER
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000
vseitz@sidley.com
Counsel for Respondents
August 30, 2021

* Counsel of Record

RULE 29.6 CORPORATE DISCLOSURE
STATEMENT
Abbott Laboratories P.R. Inc. is an indirect wholly
owned subsidiary of Abbott Laboratories, a publicly
held corporation. No other publicly held corporation
owns 10% or more of Abbott’s stock.

(i)

ii
STATEMENT OF RELATED CASES
Luz Gónzalez-Bermúdez v. Abbott Laboratories PR
Inc., Civil No. 14-1620 (D.P.R) (ongoing proceedings
on remand from Luz González-Bermúdez v. Abbott
Laboratories PR Inc., No. 19-2249 (1st Cir. Mar. 3,
2021), the First Circuit decision that Petitioner is
asking this Court to review in the petition for writ of
certiorari).

TABLE OF CONTENTS

Page

RULE 29.6 CORPORATE DISCLOSURE
STATEMENT ....................................................

i

STATEMENT OF RELATED CASES .................

ii

TABLE OF AUTHORITIES .................................

iv

BRIEF IN OPPOSITION......................................

1

COUNTERSTATEMENT OF THE CASE ...........

2

A. Petitioner’s Employment at Abbott ..........

2

B. Proceedings Below ....................................

10

ARGUMENT .........................................................

14

I. THE COURTS OF APPEALS EVALUATE
COMPARATOR EVIDENCE SIMILARLY;
THIS CASE WOULD HAVE COME OUT
THE SAME WAY IN ALL CIRCUITS ........

14

II. THE DECISION BELOW IS FULLY
COMPLIANT WITH REEVES ....................

23

III. THE FIRST CIRCUIT DID NOT SUBSTITUTE ITS JUDGMENT FOR THAT OF
THE JURY....................................................

30

CONCLUSION .....................................................

30

(iii)

iv
CASES

TABLE OF AUTHORITIES

Page

Brown v. Daikin Am., Inc., 756 F.3d 219 (2d
Cir. 2014) ...................................................
21
Brown v. Packaging Corp. of Am., 338 F.3d
586 (6th Cir. 2003) ....................................
28
Coleman v. Donahoe, 667 F.3d 835 (7th Cir.
2012) .......................................................... 17, 19
Cross v. N.Y.C. Transit Auth., 417 F.3d 241
(2d Cir. 2005) .............................................
29
Ercegovich v. Goodyear Tire & Rubber Co.,
154 F.3d 344 (6th Cir. 1998) ................ 16, 21, 22
Henderson v. Mass. Bay Transp. Auth., 977
F.3d 20 (1st Cir. 2020) ..............................
27
Johnson v. Advoc. Health & Hosps. Corp.,
892 F.3d 887 (7th Cir. 2018) ..................... 19, 20
Lewis v. Union City, 918 F.3d 1213 (11th
Cir. 2019) ................................................... 17, 21
Magruder v. Runyon, 844 F. Supp. 696 (D.
Kan. 1994), aff’d, 544 F.3d 787 (10th Cir.
1995) ..........................................................
17
Moran v. Selig, 447 F.3d 748 (9th Cir. 2006)17, 21
Morris v. Town of Independence, 827 F.3d
396 (5th Cir. 2016) ................................ 16, 22
Pierce v. Commonwealth Life Ins., 40 F.3d
796 (6th Cir. 1994) ....................................
17
Purtue v. Wis. Dep’t of Corr., 963 F.3d 598
(7th Cir. 2020) ...........................................
20
Ratliff v. City of Gainesville, 256 F.3d 355
(5th Cir. 2001) ...........................................
29
Reeves v. Sanderson Plumbing Prods., Inc.,
530 U.S. 133 (2000) ..........................
1, 23, 26
Russell v. McKinney Hosp. Venture, 235
F.3d 219 (5th Cir. 2000) ............................
29
Shumway v. UPS, Inc., 118 F.3d 60 (2d Cir.
1997) .......................................................... 16, 20

v
TABLE OF AUTHORITIES—continued

Page

Torgerson v. City of Rochester, 643 F.3d
1031 (8th Cir. 2011) .................................. 17, 21
Velez v. Thermo King de P.R. Inc., 585 F.3d
441 (1st Cir. 2009) .....................................
16
Waite v. Bd. of Trs. of Ill. Cmty. Coll. Dist.
Number 508, 408 F.3d 339 (7th Cir. 2005)
28
RULE
Sup. Ct. R. 10.................................................

30

BRIEF IN OPPOSITION
The petition asks this Court to resolve a purported
conflict among the courts of appeals on the standard
for assessing whether a plaintiff claiming discrimination has shown that she was treated differently from
“similarly situated” employees. She further claims
that this case reflects some courts of appeals’ defiance
of this Court’s decision in Reeves v. Sanderson
Plumbing Products, Inc., 530 U.S. 133 (2000). Neither
the alleged conflict nor the claimed defiance exists.
Although the Circuits use slightly different words
to describe the test for determining whether comparator employees are “similarly situated,” the tests are
substantively similar and do not result in different
outcomes in their practical application. Moreover, Petitioner’s proposed comparable employees would not
be considered similarly situated in any circuit, so this
case would be a poor vehicle for resolving any alleged
conflict.
The First Circuit’s analysis here is also fully consistent with Reeves’ teaching. The unanimous First
Circuit panel here carefully assessed the record evidence and concluded that Petitioner failed to show
age discrimination or retaliation as a matter of law.
Reeves recognizes that even where “the plaintiff has
established a prima facie case and set forth sufficient
evidence to reject the defendant’s explanation, [there
will be instances when] no rational factfinder could
conclude that the [employer’s] action was discriminatory,” including whether “the record conclusively revealed some other, nondiscriminatory reason for the
employer’s decision, or … the plaintiff created only a
weak issue of fact as to whether the employer’s reason was untrue.” Id. at 148.

2
The issues presented do not warrant review; and,
even assuming arguendo that they did, this case
would be a poor vehicle for their consideration.
COUNTERSTATEMENT OF THE CASE
A. Petitioner’s Employment at Abbott
1. Initial Employment. Petitioner, Ms. González,
joined Abbott in November 1984 as a Medical Representative. Pet. App. 3a. By 2009, she had become a
National Sales Manager, overseeing sales of pediatric
and adult nutrition products to healthcare professionals. Id.; JA216. The position was a “Level 18” on
Abbott’s pay scale. Pet. App. 3a.
2. Job Change in Reorganization. In November
2010, Abbott reorganized its Nutrition Division and
eliminated Petitioner’s position and the positions of
two other employees, Rocio Oliver and Dennis Torres.
Pet. App. 3a. Instead of laying off the affected employees, Abbott offered to retain them in different positions with lower pay-grade levels and to mitigate
that adverse pay impact by compensating them at
their prior pay levels for two years. JA217-21; JA328.
Petitioner accepted the offer and assumed the position of Institutional Marketing Manager, a Level 17
position Abbott created specifically for her. Pet. App.
3a. The General Manager of Abbott’s Nutrition Division, Matt Harris, and the Division’s Marketing
Manager, Kim Pérez, hoped Petitioner could use her
relationships with healthcare professionals to develop
marketing strategies and promotional materials that
would appeal to them. JA395-96.
Petitioner’s transition to the new position did not go
smoothly. Pet. App. 3a. Petitioner testified that Ms.
Pérez was critical of her performance from “the beginning.” JA230-31. Ms. Pérez testified that Petition-

3
er had difficulty organizing information, communicating with the marketing team, and meeting deadlines. JA401-02. When Ms. Pérez increased her oversight, Petitioner “felt harassed” and complained that
Pérez was “documenting” her performance in a file.
JA233.
3. Harassment Complaint Not Based on Age. In November 2011, Petitioner filed an internal complaint
with Abbott’s Human Resources department, Pet.
App. 3a, claiming that she was being “[l]eft behind”
by Ms. Pérez, and there was “no teamwork,” a “[l]ack
of communication,” and a “lot of pressure which [she]
interpreted as a hostile environment.” JA882. She did
not claim that the alleged harassment was because of
her age. JA216; JA530. Her complaint was that Ms.
Pérez did not tell her things directly, asked “what is
pending to be completed” not what she “has done,”
and sent numerous “follow up” emails about pending
assignments. JA882-83.
Human Resources investigated Petitioner’s complaint and found that Ms. Pérez engaged in no “inappropriate conduct.” JA883; Pet. App. 3a. Petitioner
testified that she “trusted and respected Abbott’s investigatory process,” but disagreed with its conclusion. JA357-58; see also JA883.
Shortly after filing the harassment complaint with
Human Resources, Petitioner reported to the State
Insurance Fund Corporation of Puerto Rico (“SIF”),
which placed her on medical leave for six months, until June 2012. JA423.
4. Deficient Performance in 2011. When Petitioner
returned from leave, she received her performance
evaluation, which said she “Partially Achieved” Abbott’s expectations in 2011. JA406; JA911. The evaluation said that Petitioner was several months late in

4
preparing marketing materials and budget reports.
JA409; JA412-13; JA902-03. In one instance, Abbott’s
sales force had contracted for a venue and notified
healthcare professionals about a seminar, but had to
reschedule the training because Petitioner failed to
develop the materials on time. JA410; JA412-14;
JA905. Petitioner also failed effectively to coordinate
with U.S. marketing teams. JA411-12; see JA416-17
(because Petitioner failed to communicate the date of
training by the U.S. marketing team, Puerto Rico
healthcare professionals had to be trained separately).
Petitioner did not dispute any of these documented
deficiencies. She did, however, dispute the assessment of her performance on two financial objectives.
JA419. General Manager Harris reviewed Petitioner’s objections, found them meritorious, and modified
that portion of the evaluation. JA529-30; JA907-09.
The changes, however, did not alter the overall “Partially achieved” rating. JA502.
5. Reduced Job Duties and Improved Performance
in 2012. In 2012, Petitioner told Ms. Pérez that she
could not perform all of her duties and said it would
“be good” if Ms. Pérez “could redistribute” some of
them to others. JA358-59. Ms. Pérez acceded to Petitioner’s request. Pet. App. 3a-4a; see also JA424-25;
JA431 (transferring responsibility for coordinating
the speakers program and for the WIC program).
Petitioner received an overall rating of “Achieved
expectations” for 2012, but a “partially achieved” rating in two categories relating to communication, organization, and meeting deadlines. Pet. App. 4a; see
JA426-28; JA885-86 (because Petitioner failed to
meet deadline for submissions for magazine for nutrition conference, Abbott was excluded); JA426 (Abbott
incurred overtime costs because Petitioner did not

5
ensure that a speaker for a seminar was certified in
advance); JA886 (failure to complete product pricing
strategy); JA427 (missed deadlines for expense reports and sales reports). Petitioner signed her 2012
performance evaluation and testified that she agreed
with the overall rating of “Achieved expectations.”
JA352; JA887.
6. Reassignment to Lower Paying Position in 2013.
In January 2013, two years had passed since the reorganization of the Nutrition Division, and Abbott’s
commitment to pay Petitioner at the temporary grade
expired. Because Abbott had acceded to Petitioner’s
request to transfer some of her responsibilities to
others, Abbott’s Human Resources Director met with
Ms. Pérez to evaluate the job duties Petitioner was
actually performing and to determine the appropriate
pay level for those duties. JA430. They determined
that Petitioner was actually performing the duties of
a Level 15 product manager position. Id. They therefore abolished the Marketing Manager position created for Petitioner and designated her a Product Manager at a Level 15 pay grade. Id.
At this time, the two other employees whose positions were eliminated in the reorganization (Torres
and Oliver) also were removed from the temporary
pay grade, and their compensation was reduced to
the level of the positions they then occupied. JA18182. Because they had not asked to be relieved of any
of their job duties in the intervening two years, they
simply retained the positions they accepted in the reorganization. See JA770-71; JA779-80; JA783-84;
JA181-83.
When Petitioner was advised in March 2013 that
she was being transferred to a Level 15 Product
Manager position, she experienced anxiety and reported to the company doctor, who referred her to the

6
SIF. Pet. App. 4a. The SIF approved Petitioner’s request for medical leave until July 10, 2013. Id. However, Abbott’s Human Resources Department sent
Petitioner a letter stating that if she did not contact
them about returning to work, her employment would
be terminated on April 9, 2013 “as provided by Law
45.” JA722. Abbott sent this letter because the SIF
determined that Petitioner’s anxiety was a relapse of
the illness that caused her to go on medical leave in
December 2011, and Law 45 required Abbott to hold
Petitioner’s position open only for one year following
an illness. JA75-77. After Petitioner received this letter, she returned to work. Pet. App. 4a.
7. Poor Performance in 2013 and Age Discrimination Claim. Petitioner’s mid-year review documented
that Petitioner continued to miss project deadlines
when she returned to work. Pet. App. 4a; see also
JA436-38; JA729. Petitioner nevertheless testified
that she believed she was “on track” and achieving
the expectations of her position. Pet. App. 4a.
Approximately a month after Petitioner’s midyear
review, her counsel advised Abbot that Petitioner
would be filing a claim of age discrimination against
Ms. Pérez and the company. Pet. App. 4a-5a. Petitioner testified that her relationship with Ms. Pérez
worsened after she filed the discrimination claim. Id.
at 5a.
8. Petitioner Applies For Senior Product Manager
Position But Withdraws Before Selection. In August
2013—before Petitioner’s counsel notified Abbott
about her age discrimination claim—Abbott posted on
LinkedIn a notice that the company was seeking a
senior product manager to market nutrition products
in the Caribbean. Pet. App. 5a. In November 2013,
Petitioner discovered the LinkedIn posting and sent
an email to Mr. Harris expressing interest in the po-

7
sition and alleging that the company failed to notify
her of the posting in retaliation for her age discrimination claim. Id. Mr. Harris then posted the position
on the internal Abbott job board, and Petitioner and
two other Abbott employees applied. Id.
Meanwhile, the hiring committee—Mr. Harris, Ms.
Pérez, and two members of the Human Resources department—met to discuss the selection process. Pet.
App. 5a. They were, of course, aware of Petitioner’s
discrimination claim, and discussed it among themselves and with Abbot’s counsel. Id. Petitioner and
two outside candidates were selected as finalists for
the position. Id. Mr. Harris and Ms. Pérez testified
that it is “very typical for an internal person” to be
considered for an open position JA555, and they decided that Petitioner should be allowed to compete
with the outside candidates because she met the position’s minimum requirements. JA453.
The selection committee decided to use a two-step
process for evaluating the finalists: each would be interviewed; and, the following day, each would prepare
and present a marketing presentation based on a
case study provided by Abbott. Pet. App. 5a-6a. Human Resources advised Mr. Harris and Ms. Pérez
that Abbott had successfully used the presentation
requirement in recruiting in other offices, and Ms.
Pérez thought it would allow evaluation of the “strategic thinking” of the candidates. JA540. Petitioner,
however, had not heard of Abbott imposing such a requirement. Pet. App. 5a-6a.
Nevertheless, Petitioner prepared a presentation
and returned the following day with the two external
candidates. JA307. Petitioner testified that she “had
decided to go first,” but when she walked into the
room and saw that the judges were Ms. Pérez, Mr.
Harris, and people from Human Resources, she felt it

8
was “a circus” and thought she would not actually be
considered because “they had been searching for people externally.” JA308-09. She also felt “humiliated
before the two other people who were there, who had
no experience in the company,” while she “had spent
30 years proving in different positions, demonstrating
all [her] skills,” and “fulfilling the company’s expectations.” JA310. Thus, “at that moment,” Petitioner
said she “decided to withdraw from the presentation
process.” Id.
The following afternoon, Petitioner emailed a member of the selection committee to indicate her continuing interest in the position, but was advised that Abbott had already selected another candidate for the
position. Pet. App. 6a. That candidate was a woman
who had done an effective presentation and had an
MBA in marketing and 10 years of marketing experience, including healthcare professional marketing
and consumer marketing with Nestle, and experience
in the Caribbean market. JA154; JA458. Petitioner
had not done the presentation, had no marketing degree, no experience in consumer or retail marketing,
and no experience with distributors or retailers in the
Caribbean. JA323-26.
9. Petitioner’s Continued Performance Problems in
2013 Preclude Promotion in 2014. In early 2014, Petitioner received her 2013 performance evaluation,
with an overall rating of “Partially achieved” expectations. JA315-16. The evaluation explained that although Petitioner had “a good understanding of the
business” and a “good relationship with [healthcare
practitioner] Associations,” she was not “consistent
with meeting the expected deadlines” and waited for
specific direction from Ms. Pérez or the marketing
team, instead of anticipating sales force needs.
JA889. As a result, “implementation of programs

9
[was] delayed.” JA890; see also JA890-92; JA441-42;
JA446-48 (citing specific instances of missed deadlines).
In addition, the evaluation described Petitioner’s
inappropriate response to a marketing colleague who
sent an email to Mr. Harris complaining that Petitioner’s missed deadlines were putting a marketing
project at risk. When Mr. Harris scheduled a meeting
to discuss the issue, Petitioner lost her temper and
yelled at the marketing colleague who had sent the
email. JA443; JA891; JA914.
Petitioner disagreed with the overall rating of “partially achieved” and asked Human Resources to conduct an independent review.1 Pet. App. 6a. But Petitioner did not dispute the specific incidents described
in the evaluation. Id. In fact, she admitted at trial
that “at some time it could be that I did not comply
with or meet a deadline,” JA341, and that she “los[t]
[her] composure” and “raised [her] voice” at the marketing colleague who complained about her missed
deadlines. JA347-48.
In early 2014, Petitioner applied to be Abbott’s regional sales manager, a level 18 position, but was not
interviewed because her “partially achieved” expectations rating for 2013 rendered her ineligible for promotion in 2014 under Abbott’s promotion policy. Pet.
App. 6a; see also JA163; JA535; JA780-81 (another
Abbott employee who applied also was not interviewed, because he, too, had a “partially achieves expectation” rating for 2013).

1 Petitioner also asked to have her emails from 2013 reinstated, but was informed that they had already been deleted. Hearing this, Petitioner filed an administration claim for retaliation.
Pet. App. 6a-7a.

10
On March 11, 2014, Petitioner emailed Mr. Harris
claiming that she was denied the regional sales manager position in retaliation for filing the earlier complaint of age discrimination. JA750. Petitioner also
asked to be considered for the senior district manager
position vacated by the woman chosen for the regional sales manager position. Pet. App. 7a. Mr. Harris
replied that there was no retaliation and Petitioner
not qualified for the regional sales manager position
because she had failed to meet Abbott’s minimum expectations in several areas. Id.; see also JA752 (describing deficiencies).
As for the senior district manager position, that
was filled by another employee chosen without a
competitive selection process. Pet. App. 7a. Ms. Pérez
played no role in filling any of these positions, because she was the director of marketing and these
positions were in sales. JA504. In making these hiring decisions, Mr. Harris relied on the recommendations of Carlos Martinez, the national sales director
who was in his mid-50s. JA501-04.
In April 2014, the Human Resources department
finalized a “Talent Management Review” document,
which listed developmental actions and future potential promotions for some Abbott employees, but not
Petitioner. Pet. App. 7a. Nevertheless, Petitioner had
a new supervisor in 2014 and 2015 and received a
positive performance evaluation for each year. Id.
B. Proceedings Below
1. Jury Verdict. Following a trial in October 2016,
the jury found that Abbott and Ms. Pérez discriminated against Petitioner because of her age and that
Abbott retaliated against her for complaining about
discrimination. Pet. App. 26a. It awarded Petitioner
$250,000 in back pay, $250,000 in liquidated damag-

11
es, and $3 million in compensatory damages for emotional distress against Abbott, and $1 million in compensatory damages for emotional distress against Ms.
Pérez individually. Id. After doubling the back pay
and compensatory damages award under Puerto Rico
law, the district court entered judgment for $6.75 million against Abbott and $2 million against Pérez individually.
2. Post-trial motions. Abbott and Ms. Perez filed a
motion for judgment as a matter of law, which the
district court denied. The court first found that the
jury could have inferred that age discrimination was
the reason Petitioner was demoted to a Level 15 position two years after the reorganization because (1)
two younger employees affected by the reorganization
were not downgraded to lower positions, Pet. App.
90a-91a; see also id. at 93a; and (2) Ms. Pérez and the
head of the Human Resources department were “evasive and haughty” about whether Petitioner was demoted or transferred. Id. at 94a-95a. The court justified Petitioner’s inability to perform all of the responsibilities of her Level 17 position, speculating that
Ms. Pérez “set [Petitioner] up for failure” by giving
her insufficient staff support. Id. at 92a.
Second, the court thought the jury could have found
that Petitioner was denied the Senior Product Manager position in 2013 in retaliation for filing the age
claim because Abbott posted the position on LinkedIn
without telling her, the hiring committee discussed
her age discrimination claim among themselves and
with lawyers, and the jury could have disbelieved Mr.
Harris and Ms. Pérez’s denials of retaliation. Pet.
App. 113a-115a.
Third, the court held that the jury could have found
that Petitioner was denied the Regional Sales Manager and Senior District Manager positions in 2014 in

12
retaliation for filing the age claim because the jury
could have rejected the argument that Petitioner was
not qualified due to her poor performance evaluation.
Pet. App. 122a-124a.
Fourth, the court held that Defendants were “procedurally barred” from challenging the jury’s finding
that they retaliated against Petitioner by threatening
to discharge her if she did not return from her second
SIF leave, because they did not raise it in their Rule
50(a) motion at the close of Petitioner’s case in chief.
Pet. App. 133a.
Finally, the court granted in part Defendants’ motions to amend the judgment or for a new trial. It reduced the backpay award to $95,620.83, Pet. App.
68a, and remitted the compensatory damages to
$400,000 against Abbott and $50,000 against Ms. Pérez, id. at 77a. The court then doubled the compensatory damages under Puerto Rico law to $800,000
against Abbott and $100,000 against Ms. Pérez and
entered final judgment. Id.
3. Court of Appeals. The First Circuit reversed and
entered judgment as a matter of law for Defendants
on all claims except the SIF retaliation claim, which
was remanded for a new trial.
The court first held that Defendants were entitled
to judgment on the age discrimination claim because
there was no evidence that Petitioner was demoted
two years following the reorganization because of her
age. Pet. App. 9a. A discriminatory motive cannot be
inferred from the fact that the other employees affected by the reorganization were not demoted because those employees were “not similarly situated to
[Petitioner] in several important respects.” Id. They
worked in different positions, for different supervisors, and performed different job duties, and there

13
was no evidence of their job performance, which
would be necessary to infer that “Abbott discriminated against [Petitioner] by demoting her without also
demoting” them. Id. There is “no evidence” to support
the district court’s “rather remarkable speculation”
that Ms. Pérez had designed the Level 17 position “to
be so difficult that [Petitioner] would fail.” Id. at 10a.
And Ms. Pérez’s insistence that Petitioner was
“transfer[red],” not “demot[ed]” cannot support an inference of age discrimination in light of undisputed
evidence that Petitioner and Ms. Pérez “had a difficult professional relationship from the get-go,” with
Petitioner filing “an unsubstantiated harassment
claim” against Ms. Pérez that was not based on age.
Id. at 11a.
Second, the court held that Defendants are entitled
to judgment on the allegedly retaliatory denial of the
Senior Product Manager position because Petitioner
“refused to participate in the mock-presentation component of the application process” and thus “voluntarily forfeited her eligibility” for the position. Pet. App.
15a. The mock presentation “was plainly job-related,
and it was required equally of all the finalists who
were selected to interview for the position.” Id. at
16a. The jury could not excuse Petitioner’s failure to
complete the process on the theory that Abbott should
have given her “the position outright” instead of looking outside the company, because Abbott “began soliciting external candidates” for the position “well before
[Petitioner] engaged in protected activity by filing her
age discrimination complaint against [Ms.] Pérez.” Id.
Finally, the court disagreed with the district court’s
assertion that the jury could have found that Abbott
retaliated against Petitioner by “giving her a ‘partially achieved’ performance evaluation for 2013 and
then denying her two promotions in early 2014.” Pet.

14
App. 17a. Although Petitioner testified that she received a favorable evaluation at her 2013 mid-year
review before she filed her age discrimination claim,
the jury could not reasonably infer that her final unfavorable review was due to retaliation, because the
“undisputed evidence” shows that Petitioner’s “performance worsened after her mid-year evaluation had
been completed.” Id. at 18a. The “partially achieved”
performance rating left no rational basis for finding
that the denial of a promotion in 2014 was retaliatory
because Abbott had a policy of not promoting employees who had received a “partially achieved” rating the
preceding year. Id. at 21a.
ARGUMENT
This interlocutory appeal of a court of appeals decision taking a mainstream approach to review of the
sufficiency of the evidence in an age discrimination
case presents no issue worthy of this Court’s review.
I. THE COURTS OF APPEALS EVALUATE
COMPARATOR EVIDENCE SIMILARLY;
THIS CASE WOULD HAVE COME OUT THE
SAME WAY IN ALL CIRCUITS.
The petition first argues that there is a conflict
among the courts of appeals about the standard for
determining whether a plaintiff claiming discrimination has shown that she was treated differently from
“similarly situated” employees and that this case is a
good vehicle for resolving that conflict. In fact, while
the Circuits use slightly different formulations of the
test for “similarly situated,” all are similar and in
practical application reach the same results. In any
event, Petitioner did not show that she was treated
differently from similarly situated employees under
any Circuit’s test.

15
As the First Circuit explained in its unanimous
opinion:
No matter how generously one views the trial
record, it is apparent that Oliver and Torres
were not similarly situated to Gonzalez in several important respects. Although Oliver and
Torres, like Gonzalez, saw their positions eliminated as a result of Abbott’s reorganization three
years earlier in 2010, this at most shows that
they were similarly situated to Gonzalez in one
respect in 2010. For the next three years, Oliver
and Torres occupied lower positions, performed
different duties, and reported to different supervisors than did Gonzalez. Moreover, there is no
evidence in the record regarding Oliver and
Torres’s job performance between 2010 and 2013,
which would be necessary for Gonzalez to establish that Abbott discriminated against her by
demoting her without also demoting Oliver and
Torres. In sum, if Oliver and Torres were apples
in 2013, Gonzalez was not even a fruit. Pet. App.
9a (emphases supplied) (citations omitted).
The petition does not fairly address this aspect of
the First Circuit’s decision. Nor does it demonstrate
that Petitioner would have prevailed in any circuit
given her failure to provide evidence about her proposed comparators’ performance, evaluations or disciplinary records, much less any evidence that they
asked to have their job duties reduced, as Petitioner
did. Further, the proposed comparators worked at different jobs, with wholly different responsibilities and
for different supervisors. This case, accordingly,
would not allow the Court meaningfully to confront
any alleged circuit split on the standard for determining whether comparators are similarly situated.

16
In any event, the petition significantly overstates
the differences among the courts of appeals’ standards and ignores that, in practical application, the
tests produce generally consistent results.
The formulations themselves are similar:
First Circuit: “[A] claim of disparate treatment
‘must rest on proof that the proposed analogue is similarly situated in material respects.’” Velez v. Thermo
King de P.R. Inc., 585 F.3d 441, 451 (1st Cir. 2009)
(quoting Perkins v. Brigham & Women’s Hosp., 78
F.3d 747, 752 (1st Cir. 1996)).
Second Circuit: Comparators must be “similarly
situated in all material respects.” Shumway v. UPS,
Inc., 118 F.3d 60, 64 (2d Cir. 1997)
Fifth Circuit: A plaintiff must show that she was
“treated less favorably than others ‘under nearly
identical circumstances.’” Morris v. Town of Independence, 827 F.3d 396, 401 (5th Cir. 2016) (quoting
Lee v. Kansas City S. Ry., 574 F.3d 253, 259 (5th Cir.
2009)). The “court considers a number of factors in
determining whether employees are similarly situated,” including whether “the employees being compared held the same job or responsibilities, shared
the same supervisor or had their employment status
determined by the same person, and have essentially
comparable violation histories.” Id.
Sixth Circuit: “[T]he plaintiff must show that the
‘comparables’ are similarly-situated in all respects.”
Ercegovich v. Goodyear Tire & Rubber Co., 154 F.3d
344, 352 (6th Cir. 1998) (quoting Mitchell v. Toledo
Hosp., 964 F.2d 577, 583 (6th Cir. 1992)). “Although
this statement appears to invite a comparison between the employment status of the plaintiff and other employees in every single aspect of their employment, Mitchell has not been so narrowly construed.

17
In Pierce v. Commonwealth Life Insurance Co., 40
F.3d 796 (6th Cir. 1994), the court explained that the
plaintiff was simply “required to prove that all of the
relevant aspects of his employment situation were
‘nearly identical’ to those of [the non-minority’s] employment situation.” Id. at 802 (emphasis supplied).
Seventh Circuit: “Similarly situated employees
‘must be directly comparable’ to the plaintiff ‘in all
material respects,’ but they need not be identical in
every conceivable way.” Coleman v. Donahoe, 667
F.3d 835, 846 (7th Cir. 2012) (quoting Patterson v.
Ind. Newspapers, Inc., 589 F.3d 357, 365-66 (7th Cir.
2009)).
Eighth Circuit: Plaintiffs have the burden to show
that “they and the top applicants were ‘similarly situated in all relevant respects.’” Torgerson v. City of
Rochester, 643 F.3d 1031, 1051 (8th Cir. 2011) (en
banc).
Ninth Circuit: Plaintiffs must be “similarly situated
to those employees [used as comparators] in all material respects.” Moran v. Selig, 447 F.3d 748, 755 (9th
Cir. 2006).
Tenth Circuit: Plaintiffs must be similarly situated
to their comparators in all respects relevant to the
employer’s decision. Magruder v. Runyon, 844 F.
Supp. 696, 702 (D. Kan. 1994), aff’d, 544 F.3d 787
(10th Cir. 1995).
Eleventh Circuit: The plaintiff must show that she
is “similarly situated in all material respects.” Lewis
v. Union City, 918 F.3d 1213, 1231 (11th Cir. 2019)
(en banc).
As this list makes clear, the predominant formulation requires that a plaintiff show that comparators
were “similarly situated in all material respects,” as

18
the First Circuit required here. No court requires
that the comparators be identically situated; and all
require similarity only in relevant respects. Even the
Fifth Circuit—whose formulation requires that comparators be in “nearly identical[ly]” situated—in fact
performs an inquiry focused on the key facts that
would make comparison of the plaintiff’s and other
employees’ situations appropriate. Many cases fail
because, as here, the plaintiff fails to provide sufficient record evidence to show that her proposed comparators are similarly situated. Outcomes in other
cases differ depending on whether the record reveals
sufficient comparability to support a claim of discrimination.
None of the petition’s contrary arguments withstands scrutiny. The petition first argues that the
First Circuit “requir[ed] comparators’ positions, duties, and supervisors to be identical to those of the
plaintiff before comparator evidence can be used to
prove discrimination.” Pet. 14. As is clear from the
passage quoted above, this statement badly distorts
the opinion, which relied on the facts that her two
comparators “occupied lower positions, performed different duties, and reported to different supervisors
than did Gonzalez,” and that “there is no evidence in
the record regarding Oliver and Torres’s job performance between 2010 and 2013, which would be necessary for Gonzalez to establish that Abbott discriminated against her by demoting her without also demoting Oliver and Torres.” Pet. App. 9a (emphasis
supplied). The First Circuit made no rule requiring
identity of comparators’ positions, duties and supervisors. Its approach to analyzing comparator evidence
lies in the mainstream.
The petition’s further claim that this case would
have come out differently in different circuits, Pet.

19
18, is based on its distortion of the holding. In fact,
fairly read, the court’s holding is that Petitioner
failed to show similarity in any of the respects enumerated and presented no other evidence of similarity. Pet. App. 9a.
Second, the petition argues that the Seventh Circuit applies a “far less rigid standard” than the First
Circuit and others. Pet. 14. In fact, as noted above, it,
like the First Circuit, requires that “[s]imilarly situated employees ‘must be directly comparable’ to the
plaintiff ‘in all material respects,’ [although] they
need not be identical in every conceivable way.”
Coleman, 667 F.3d at 846 (quoting Patterson, 589
F.3d at 365-66). In fact, in Coleman itself—which the
petition cites (at 14) for the proposition that the Seventh Circuit is “far less rigid” than others—the court
stated that “[i]n the usual case a plaintiff must at
least show that the comparators (1) ‘dealt with the
same supervisor,’ (2) ‘were subject to the same standards,’ and (3) ‘engaged in similar conduct without
such differentiating or mitigating circumstances as
would distinguish their conduct or the employer’s
treatment of them.” 667 F.3d at 847 (quoting Gates v.
Caterpillar, Inc., 513 F.3d 680, 690 (7th Cir. 2008)).
And Coleman explained that the purpose of requiring
similarly situated comparators was “to eliminate other possible explanatory variables, ‘such as differing
roles, performance histories, or decision-making personnel, which helps isolate the critical independent
variable’—discriminatory animus.” Id. at 846 (quoting Humphries v. CBOCS W., Inc., 474 F.3d 387, 405
(7th Cir. 2007)).
And, even in the Seventh Circuit, whose approach
the petition lauds, the court has held comparator evidence inadequate if the record fails to support a comparison. In Johnson v. Advocate Health & Hospitals

20
Corp., 892 F.3d 887 (7th Cir. 2018), for example, the
court observed that the plaintiff said that two employees, Kelly and Diane, had higher salaries, but
“submitted no pay records, nothing about their qualifications or experience, … who supervised Kelly and
Diane, how long they had worked for the hospital,
what types of reviews they received, and if they had
been subject to any discipline.” Id. at 896. See id. at
897 (plaintiff “did not submit affidavits from white
EVS technicians who were paid for their work, records of assignments, pay, or any other scintilla of evidence of how similarly situated white employees were
treated”); id. at 898 (“plaintiffs offer no evidence
about who [the comparator] was, what her position
was, who supervised her, why she refused to work in
her assigned area, and whether she had a similar disciplinary record and similar performance reviews”).
See also Purtue v. Wis. Dep’t of Corr., 963 F.3d 598,
603 (7th Cir. 2020) (stating that the record did “not
reveal why any [comparator] employee in the study
was fired—which makes it impossible to determine
how many of the fired employees were comparable to
Purtue in the respect that matters most”); (observing
that she identified comparators who worked at different facilities and whose discipline fell to different decisionmakers).
The petition characterizes the Sixth, Second and
Ninth Circuits’ approaches favorably and as akin to
the Seventh Circuit’s, “us[ing] relevancy as the
touchstone.” Pet. 15. Their tests are the same as the
First Circuit’s and the petition does not attempt to
show that there are cases akin to this one that would
have come out differently in the First Circuit. They
would not. Compare, e.g., Shumway, 118 F.3d at 64
(rejecting claims that males who violated no fraternization policy were similarly situated when they did

21
not have the same supervisors or engage in comparable stalking or harassing conduct); Moran, 447 F.3d
at 752 (plaintiffs were not similarly situated to former Negro League players because they were never
prevented from playing for MLB teams due to race)
with Ercegovich, 154 F.3d at 353 (plaintiff was similarly situated to others in “related human resources
positions” which were eliminated in a reorganization); Brown v. Daikin Am., Inc., 756 F.3d 219, 230
(2d Cir. 2014) (plaintiffs were similarly situated to
comparators who “worked in the New Business Development Group” and two “reported to the same supervisor as he did” and was subject to the “same performance evaluation and disciplinary standards”).
The petition also characterizes the Eighth, Fifth
and Eleventh Circuits as having more rigid or restrictive approaches, but fails to show any significant
practical difference among the approaches. As the petition recognizes, the Eighth and Eleventh Circuits
use the same formulation as the First and most other
Circuits. The petition’s characterization of the Eighth
Circuit’s approach as more rigorous is based on that
court’s description of the standard as rigorous rather
than any practical difference between that court’s approach and others. See Torgerson, 643 F.3d at 1051
(finding no discrimination in firefighter hiring process where plaintiffs were far lower on the eligibility
list based on testing than those hired). Likewise, the
Eleventh Circuit’s analysis follows the same path as
that in other “relevancy” circuits. See Lewis, 918 F.3d
at 1226 (explaining that similarly situated employees
generally will have engaged in the same basic conduct (or misconduct) as the plaintiff, will have been
subject to the same employment policy, guideline, or
rule as the plaintiff, will have been under the juris-

22
diction of the same supervisor, and will share the
plaintiff’s employment or disciplinary history).
As for the Fifth Circuit, it, like Petitioner’s favored
Sixth Circuit, uses a relevancy test, which it frames
as requiring that a plaintiff show that she was “treated less favorably than others ‘under nearly identical
circumstances.’” Morris, 827 F.3d at 401. Compare
Ercegovich, 154 F.3d at 352 (“In Pierce v. Commonwealth Life Ins., 40 F.3d 796 (6th Cir. 1994), this
court explained that the plaintiff was simply ‘required to prove that all of the relevant aspects of his
employment situation were ‘nearly identical’ to those
of [the non-minority’s] employment situation. Id. at
802.”) (emphasis supplied). Like all courts, the Fifth
Circuit considers whether comparators had “different
work responsibilities,” worked for “different supervisors” or in “different divisions” and whether they engaged in “dissimilar violations” or “were the subject of
adverse employment actions too remote in time from
that taken against the plaintiff.” Morris, 827 F.3d at
401. That court, too, has been clear that similar does
not mean “identical.” Id. And, contrary to the insinuation in the petition (at 16), in Morris, the court “express[ed] no opinion” about whether the Sixth Circuit’s approach “differs from the law in this Circuit.”
Id. at 402.
In sum, Petitioner failed to show similarly situated
comparators under the law of any Circuit. And the
courts of appeals themselves use similar formulations
and consider similar factors, with differences in outcomes resulting from differences in the evidence
plaintiffs introduce.

23
II. THE DECISION BELOW IS FULLY COMPLIANT WITH REEVES.
The courts of appeals routinely cite and comply
with the instructions in Reeves v. Sanderson 530 U.S.
at 147-48, that “a plaintiff’s prima facie case, combined with sufficient evidence to find that the employer’s asserted justification is false, may permit the
trier of fact to conclude that the employer unlawfully
discriminated.” Reeves added, however, that
This is not to say that such a showing by the
plaintiff will always be adequate to sustain a jury’s finding of liability. Certainly there will be
instances where, although the plaintiff has established a prima facie case and set forth sufficient evidence to reject the defendant’s explanation, no rational factfinder could conclude that
the [employer’s] action was discriminatory. For
instance, an employer would be entitled to judgment as a matter of law if the record conclusively
revealed some other, nondiscriminatory reason
for the employer’s decision, or if the plaintiff created only a weak issue of fact as to whether the
employer’s reason was untrue and there was
abundant and uncontroverted independent evidence that no discrimination had occurred. Id.
Thus, this Court instructed that “a number of factors”
must be considered in determining whether a showing of pretext, in combination with a prima facie case
of discrimination, raise a jury question of discriminatory intent. Id. at 148-49.
That is the path the First Circuit followed here. It
found that no rational factfinder could conclude that
Petitioner was demoted based on her age or retaliated against for complaining about discrimination.
With respect to the demotion, the court stated that

24
“[w]ithout this unsuitable comparator evidence [addressed above],” Petitioner had no evidence that in
any way suggests that she was demoted in March
2013 because of age discrimination. Pet. App. 9a. At
oral argument, counsel could cite none.” Id. Further,
the court stated, there is no “evidence showing that
Abbott told any material lies that might in context
have been viewed as attempts to conceal a discriminatory motive.” Id. at 10a. Indeed, the record was replete with “evidence that [Petitioner] and [her supervisor] had a difficult professional relationship from
the get-go, leading [Petitioner] to file an unsubstantiated harassment claim against [the supervisor] back
in 2011.” Id. at 11a. See id. at 13a (citing a “total absence of evidence that [Abbott’s] actions were motivated by [Petitioner’s] age”).
Petitioner disagrees with the court’s conclusions,
but it cites no evidence supporting the verdict that
the court ignored, and its fact-bound disagreement
with the court’s conclusion is not a basis for this
Court’s review. The petition asserts that the court
wrongly substituted its judgment for the jury, which
could have found that “some of Abbott’s witnesses
falsely denied the fact that [Petitioner] had even been
demoted.” Pet. 26. But the witnesses readily admitted
that Petitioner was transferred to a lower position,
and the petition nowhere explains how incorrectly
calling the demotion a “transfer” can be viewed as an
“attempt[] to conceal a discriminatory motive.” Pet.
App. 10a-11a. The petition also repeats the district
court’s assertion that the jury could have concluded
that Petitioner “had been set up to fail” in the position, Pet. 27, but, as the court of appeals explained,
“there is no evidence to support this rather remarkable speculation,” Pet. App. 10a.

25
Petitioner’s disagreement with the court’s assessment of the undisputed record facts about the reasons
she was denied a promotion does not demonstrate
that the First Circuit somehow defied Reeves. With
respect to the Senior Product Manager promotion, the
court found that “[t]he undisputed evidence in the
record shows that [Petitioner] refused to participate
in the mock-presentation component of the application process,” and thus “voluntarily forfeited her eligibility for promotion.” Pet. App. 15a (citing cases).
Addressing Petitioner’s futility argument, the court
explained that this was not a case where the “employer unlawfully made it impossible or dangerous for
a person to complete the application process,” and
that “it is not for the plaintiff to predict the employer’s hiring decision and then claim to be the victim of
that predicted decision.” Id. at 15a-16a (citing cases).
The court thus concluded, as a matter of law, that Petitioner was not eligible for the promotion she sought.
The court also rejected Petitioner’s claim that Abbott’s requirement that she apply for the position was
retaliatory because “the undisputed evidence in the
record shows that Abbott began soliciting external
candidates for the [position] in August 2013, well before [Petitioner] engaged in protected activity.” Id. at
16a. The petition cites no decision in any circuit holding that Reeves requires a court to uphold a jury verdict of retaliation on similar facts.
Finally, the court properly rejected Petitioner’s arguments that she presented sufficient evidence that
she was given a low performance evaluation that resulted in the denial of two promotions in retaliation
for complaining about her demotion. Pet App. 17a.
Again, the court noted that the record “contains undisputed evidence that [Petitioner’s] performance
worsened after her mid-year evaluation,” including

26
three missed deadlines, and one failure to complete a
late project. Id. at 18a. The court noted that Petitioner did not dispute these facts. And the court considered and rejected Petitioner’s remaining arguments
based on undisputed record evidence. Id. at 19a-22a.
Again, Petitioner cites no evidence supporting the
verdict that the court overlooked, and disagreement
with the court’s conclusion is not proof that the court
defied Reeves.
The petition also makes the more theoretical argument that Reeves stands for the proposition that a
factfinder’s “disbelief of an employer’s proffered explanation for its decision can alone support an inference of discrimination.” Pet. 24. That is an incomplete
statement of Reeves’ holding. As set forth above, a
plaintiff’s claim of discrimination cannot reach the
jury if, inter alia, the evidence of pretext is weak, or
“no rational factfinder could conclude that the [employer’s] action was discriminatory,” 530 U.S. at 148,
as was the case here. Petitioner did not believe that
she was demoted because she requested to be relieved
of some of the duties of her position or that she was
not promoted because she was unqualified for the positions (by virtue of her failure to complete the application process or of her low performance evaluations).
But she admitted numerous facts that rendered her
pretext evidence weak. See supra at 4-6, 9. A prima
face case of discrimination accompanied by a plaintiff’s subjective disbelief in the employer’s explanation is not sufficient to take a discrimination case to
the jury under Reeves; if it were, an employer could
never receive summary judgment.
The petition further suggests that the courts of appeals are not faithfully applying Reeves. In support of
its claim that the First Circuit is not doing so, it cites
only a partial concurrence and dissent by Judge Bar-

27
ron in Henderson v. Massachusetts Bay Transportation Authority, 977 F.3d 20 (1st Cir. 2020). In that
case, the First Circuit cited the framework established in Reeves, id. at 32, and assessed the record in
detail before concluding that the plaintiff had not
presented sufficient evidence of pretext or discrimination to get to a jury, id.
Judge Barron disagreed with the court’s opinion
that, in context, the plaintiff’s evidence of pretext was
too weak to support an inference of discriminatory
intent. Id. at 46. Specifically, he thought that the employee had sufficiently shown pretext based on the
employer’s “assessment of an answer [to an interview
question] that invites objective assessment when the
record supportably showed that the employer’s actual
assessment of that answer is, objectively, indefensible.” Id. See id. at 47 (it is not “necessarily unreasonable for a juror to infer that the evaluative process
was tainted generally when the evidence of the employer’s problematic evaluation of a specific, important question is clear enough”). Judge Barron’s
dissent painstakingly walked through the evidence
and explained his disagreement with the court’s decision that the evidence of pretext was weak, id. at 4749, and that plaintiff failed to show the employer’s
stated reasons was “a pretext for race-based discrimination.” Id. at 50. It was in this context that he stated that Reeves was being undermined by individual,
fact dependent rulings. Id. at 54. Notably, Judge Barron cited no other cases in which he thought the circuit strayed from Reeves. Id. And the differing assessments of the proper application of Reeves to a
complex set of facts at issue in Henderson do not
show that the First Circuit is “drift[ing] away from
Reeves.” Pet. 22.

28
The petition likewise accuses the Sixth Circuit of
“stray[ing],” Pet. 23, in Brown v. Packaging Corp. of
America, 338 F.3d 586 (6th Cir. 2003). But the Sixth
Circuit explained that it approved the jury instruction in question because it was consistent with
Reeves, quoting that decision, id. at 593 (quoting
Reeves, 530 U.S. at 146-47 (“it is not enough … to
disbelieve the employer, the factfinder must believe
the plaintiff’s explanation of intentional discrimination”) (quoting St. Mary’s Honor Ctr. v. Hicks, 509
U.S. 502, 524, 519 (1993))).
The petition also criticizes the Seventh Circuit—its
preferred circuit with respect to the “similarly situated” standard—as “shirk[ing] Reeves.” Pet. 23. But in
Waite v. Board of Trustees of Illinois Community College District Number 508, 408 F.3d 339, 344 (7th Cir.
2005), the court recited Reeves’ instruction that the
court should consider “the strength of the plaintiff’s
prima facie case, the probative value of the proof that
the employer’s explanation is false, and any other evidence that supports the employer’s case and that
may properly be considered on a motion for judgment
as a matter of law.” Id. at 343 (quoting Reeves, 530
U.S. at 148-49). After evaluating the full record, the
court concluded that the record was sufficient to support an inference of discriminatory intent, and it upheld the jury verdict for the plaintiff. This analysis is
fully consistent with Reeves.
Finally, the petition claims that other circuits—the
Second and Fifth—support its view that a factfinder’s
“disbelief of an employer’s proffered explanation for
its decision can alone support an inference of discrimination.” Pet. 24. Again, this incomplete statement of
Reeves is misleading. These Circuits, like all others,
understand that Reeves explains that such evidence

29
can be sufficient, but can also be insufficient depending on the record in its entirety.
In Cross v. New York City Transit Authority, 417
F.3d 241 (2d Cir. 2005), the Second Circuit quoted
Reeves’ conclusion that “sufficient evidence to find
that the employer’s asserted justification is false, may
permit the trier of fact to conclude that the employer
unlawfully discriminated,” id. at 249 (emphasis supplied), and observed that Reeves cautioned that in
some instances where “the plaintiff has established a
prima facie case and set forth sufficient evidence to
reject the defendant’s explanation,” nonetheless, “no
rational factfinder could conclude that the action was
discriminatory.” Id. (quoting Reeves, 530 U.S. at 148).
And in Russell v. McKinney Hospital Venture, 235
F.3d 219 (5th Cir. 2000), too, the Fifth Circuit simply
recited the Reeves approach, id. at 223, including that
there may be instances “where a showing of pretext
would not be sufficient to infer discrimination,” id.,
and it analyzed the evidence in Russell with that
framework in mind. See also Ratliff v. City of Gainesville, 256 F.3d 355, 360 (5th Cir. 2001) (applying the
Reeves approach).
The courts of appeals all apply Reeves. Although
circuit judges sometimes have differing views about
whether record evidence fulfills the Reeves standard
in particular instances, there is no pervasive undermining of Reeves. Nor, if there were, would this be an
appropriate case to take up that question. As the
First Circuit concluded, Petitioner failed to present
sufficient evidence that Abbott’s reasons for demoting
and not promoting her were pretextual, or that that
Abbott was concealing a true motive of age discrimination.

30
III. THE FIRST CIRCUIT DID NOT SUBSTITUTE ITS JUDGMENT FOR THAT OF THE
JURY.
The petition’s final argument is that the First Circuit misapplied applicable law in evaluating the record in this case and substituted its judgment for the
jury’s. That argument raises an issue that is not appropriate for this Court’s review. See Sup. Ct. R. 10.
It is also incorrect.
As shown above, with respect to each claim, the
court considered whether Petitioner had presented
sufficient evidence to allow a factfinder to conclude
that Abbott demoted or declined to promote her based
on her age, and concluded that the record lacked such
evidence. That decision, accordingly, did not secondguess the jury, but rather concluded that Petitioner’s
claims had failed as a matter of law and that she had
not presented sufficient evidence of age discrimination to place her claims before the fact-finder.
CONCLUSION
For the foregoing reasons, the petition should be
denied.
Respectfully submitted,
VIRGINIA A. SEITZ*
KATHLEEN M. MUELLER
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000
vseitz@sidley.com
Counsel for Respondents
August 30, 2021

* Counsel of Record

